            AUDIT OF THE
       KENTUCKY STATE POLICE’S
EQUITABLE SHARING PROGRAM ACTIVITIES


       U.S. Department of Justice
     Office of the Inspector General
              Audit Division


      Audit Report GR-50-12-003
              March 2012
            AUDIT OF THE KENTUCKY STATE POLICE’S
           EQUITABLE SHARING PROGRAM ACTIVITIES

                             EXECUTIVE SUMMARY

      The U.S. Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit of the use of DOJ equitable sharing
revenues by the Kentucky State Police (KSP). Equitable sharing revenues
represent a share of the proceeds from the forfeiture of assets seized in the
course of certain criminal investigations. 1 During the period of July 1, 2009,
through June 30, 2010, the KSP was awarded DOJ equitable sharing
revenues totaling $893,353 and property valued at $64,785 to support law
enforcement operations.

       The objectives of the audit were to assess whether equitably shared
cash and property received by the requesting agency were accounted for
properly and used for allowable purposes as defined by the applicable
regulations and guidelines. We found that the KSP generally complied with
equitable sharing guidelines with respect to tracking funds received and
adhering to supplanting requirements. However, we identified weaknesses
related to the use and reporting of interest income, the accuracy of its
Equitable Sharing Agreement and Certification Report (Certification Report),
its assessment of tangible property values, the lack of a Single Audit
performed on equitable sharing funds, its use of equitable sharing funds, and
proper maintenance of its DAG-71 log. Specifically, we found that:

       •   The KSP did not return to its Asset Forfeiture account $33,478 in
           interest income it earned on asset forfeiture funds in 2010 and did
           not report the interest earned on its 2010 Certification Report.

       •   There were two additional areas of weakness on the KSP’s
           2010 Certification Report: (1) restitution revenue totaling $6,704
           was received but was not included as other income on the report,
           and (3) a $950 purchase of a dual-purpose canine was
           misclassified.




       1
           The DOJ asset forfeiture program has three primary goals: (1) to punish and
deter criminal activity by depriving criminals of property used or acquired through illegal
activities; (2) to enhance cooperation among foreign, federal, state, and local law
enforcement agencies through equitable sharing of assets recovered through this program;
and, as a by-product, (3) to produce revenues to enhance forfeitures and strengthen law
enforcement.
     •   The FY 2010 DOJ Consolidated Asset Tracking System (CATS)
         Report total asset value and the KSP total inventory asset value
         differed by $32,273 for the six vehicles received as tangible
         equitable sharing assets by the auditee. In accordance with OMB
         Circular A-133, the KSP must inventory its DOJ-provided property
         at fair market value. Additionally, we found that the KSP does not
         have written procedures for assessing the value of seized property.
         KSP officials indicated that they used the most current Kelley Blue
         Book to determine the value of the six vehicles as recorded in the
         KSP accounting records.

     •   Although the KSP expended over $1.3 million in DOJ asset forfeiture
         funds in fiscal year 2010, its DOJ asset forfeiture funds were not
         included in the Commonwealth of Kentucky’s Statewide Single Audit
         for the year ended June 30, 2010, as required by Office of
         Management and Budget (OMB) Circular A-133.

     •   We identified four unallowable transactions, totaling $1,192. These
         transactions were corrected and allocated to the correct fund during
         our site visit.

     •   The KSP’s DAG-71 log did not report forfeiture property received or
         the amount requested from the participating federal law
         enforcement agency, as required by equitable sharing guidelines.

      Our report contains six recommendations to address the weaknesses
we identified. Our findings are discussed in greater detail in the Findings
and Recommendations section of the report. The audit objectives, scope,
and methodology appear in Appendix I.




                                    - ii -
                                 TABLE OF CONTENTS


INTRODUCTION              ............................................................................. 1

Background ......................................................................................... 1

OIG Audit Approach .............................................................................. 2

FINDINGS AND RECOMMENDATIONS................................................ 3

Equitable Sharing Agreement and Certification Report ............................... 3

Accounting for Equitable Sharing Receipts ............................................... 6

DAG-71s ............................................................................................. 6

Use of Equitably Shared Property ........................................................... 6

Use of Equitable Sharing Funds .............................................................. 8

Single Audit Act Requirements ............................................................... 9

Supplanting ......................................................................................... 9

Views of Responsible Officials ............................................................... 10

Recommendations .............................................................................. 10

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............... 11

APPENDIX II - AUDITEE RESPONSE ................................................ 13

APPENDIX III - OFFICE OF THE INSPECTOR GENERAL
                ANALYSIS AND ACTIONS NECESSARY
                TO RESOLVE THE REPORT ................................... 16
                            INTRODUCTION

      The U.S. Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit of the use of DOJ equitable sharing
revenues by the Kentucky State Police (KSP). The audit covered the KSP’s
2010 fiscal year (FY), specifically the period of July 1, 2009, through
June 30, 2010. During that period, the KSP was awarded DOJ equitable
sharing revenues totaling $893,353 and property valued at $64,785 to
support law enforcement operations. The objectives of the audit were to
assess whether equitably shared cash and property received by the
requesting agency were accounted for properly and used for allowable
purposes as defined by the applicable regulations and guidelines.

Background

      The primary mission of the DOJ Asset Forfeiture Program is to employ
asset forfeiture powers in a manner that enhances public safety and
security. This is accomplished by removing the proceeds of crime and other
assets relied upon by criminals and their associates to perpetuate their
criminal activity against our society. Asset forfeiture has the power to
disrupt or dismantle criminal organizations that would continue to function if
we only convicted and incarcerated specific individuals.

       Another purpose of the DOJ Asset Forfeiture Program is to deter crime
by depriving criminals of the profit and proceeds from illegal activities. A
secondary purpose of the program is to enhance cooperation among federal,
state, and local law enforcement agencies by sharing federal forfeiture
proceeds through the DOJ equitable sharing program. State and local law
enforcement agencies may receive equitable sharing revenues by
participating directly with DOJ agencies in joint investigations leading to the
seizure or forfeiture of property. The amount shared with the state and local
law enforcement agencies in joint investigations is based on the degree of
the agencies’ direct participation in the case. The U.S. Department of the
Treasury (Treasury) administers a similar equitable sharing program. Our
audit was limited to equitable sharing revenues received through the DOJ
equitable sharing program.

      Although several DOJ agencies are involved in various aspects of the
seizure, forfeiture, and disposition of equitable sharing revenues, the
DOJ Criminal Division, Asset Forfeiture and Money Laundering Section
(AFMLS), is responsible for issuing policy statements, implementing
governing legislation, and monitoring the use of DOJ equitable sharing
funds. Generally, the use of equitable sharing revenues by state and local
recipient agencies is limited to law enforcement purposes. However, under
certain circumstances, up to 15 percent of equitable sharing revenues may
be used for the costs associated with drug abuse treatment, drug and crime
prevention education, housing and job skills programs, or other nonprofit
community-based programs or activities. This provision requires that all
expenditures be made by the law enforcement agency and does not allow for
the transfer of cash.

      KSP headquarters is located in Frankfort, Kentucky, which is the state
capital. The KSP’s law enforcement budgets were $139,127,912 in FY 2009;
$130,117,000 in FY 2010; and $139,379,600 in FY 2011.

OIG Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the DOJ equitable sharing program. Unless
otherwise stated, we applied the 2009 Equitable Sharing Guide as our
primary criteria. The 2009 Equitable Sharing Guide identifies the accounting
procedures and requirements for tracking equitably shared monies and
tangible property, establishes reporting and audit requirements, and defines
the permissible uses of equitably shared resources.

      To conduct the audit, we tested the KSP’s compliance with the
following three aspects of the DOJ equitable sharing program:

     •   Accounting for equitably shared resources to determine
         whether standard accounting procedures were used to track
         equitable sharing assets.

     •   Annual Equitable Sharing Agreements and Certification
         Forms to determine if these documents were complete and
         accurate.

     •   Use of equitably shared resources to determine if equitable
         sharing funds were spent for permissible uses.

     See Appendix I for more information on our objectives, scope and
methodology.




                                    -2-
              FINDINGS AND RECOMMENDATIONS

     The KSP complied with Equitable Sharing Guidelines with respect
     to accounting for and tracking of funds received and adhering to
     non-supplanting requirements. However, we found weaknesses
     related to interest earned by the KSP on its equitable sharing
     funds, the accuracy of its Annual Certification Report and
     Equitable Sharing Agreement, the assessment of values for
     shared assets received, and the maintenance of the DAG-71 log.
     Specifically, the KSP did not return to its Asset Forfeiture Fund or
     report on its 2010 Certification Report the $33,478 in interest
     income that was earned on DOJ equitable sharing funds. In
     addition, the KSP incorrectly categorized the purchase of a police
     canine and omitted $6,704 in restitution reimbursements on its
     2010 Certification Report. We also found a difference of $32,273
     between the transferred shared asset values on the CATS Report
     and the KSP inventory records. Further, we identified four
     unallowable transactions, totaling $1,192, that were remedied
     during our site visit. Lastly, although the KSP expended over
     $1.3 million in DOJ federal asset forfeiture funds during FY 2010,
     these funds were not included in the Commonwealth of
     Kentucky’s Statewide Single Audit for the year ended June 30,
     2010, in accordance with OMB Circular A-133.

Equitable Sharing Agreement and Certification Report

       The AFMLS requires that any state or local law enforcement agency
that receives forfeited cash, property, or proceeds as a result of a federal
forfeiture submit an Equitable Sharing Agreement and Certification Report
(Certification Report). The submission of this form is a prerequisite to the
approval of any equitable sharing request. Noncompliance may result in the
denial of the agency’s sharing request.

       The Certification Report must be submitted every year within 60 days
after the end of the agency’s fiscal year regardless of whether funds were
received or maintained during the fiscal year. The agreement must be
signed by the head of the law enforcement agency and a designated official
of the local governing body. By signing the agreement, the signatories
agree to be bound by the statutes and guidelines that regulate the equitable
sharing program and certify that the law enforcement agency will comply
with these guidelines and statutes.

     We tested compliance with the Certification Report requirements and
determined that the form for FY 2010 was timely submitted, adequately


                                    -3-
completed, and signed by the appropriate officials. However, we found
weaknesses relating to: (1) interest income, (2) restitution revenue
received, (3) criminal asset proceeds, and (4) misclassification of a
purchased canine.

       On its 2010 Certification Report, the KSP identified that it did not
receive interest on its DOJ forfeiture funds and that the DOJ funds were held
in a non-interest bearing account. However, despite initial claims by an
official from the Commonwealth of Kentucky’s Finance Branch that the DOJ
funds did not accrue interest, we identified that interest was accruing on DOJ
asset forfeiture funds and that $33,478 in earned interest was paid to a
state fund called Capital Construction in FY 2010. We believe this occurred
because the Commonwealth of Kentucky, which maintains the accounting
records for the KSP, did not post the interest income to the KSP asset
forfeiture accounting fund. According to equitable sharing guidelines, any
interest earned on equitable sharing funds must be reported on the
Certification Report and must be returned to the agency’s equitable sharing
fund to be used in accordance with the same guidelines as all other equitable
sharing funds.

       After determining that interest in FY 2010 was accrued and not
reported or returned to the proper fund, we expanded our review of interest
accrued to include additional years. We reviewed data and cash
distributions from the forfeiture fund for FY 2008, 2009, and 2011, and we
identified the same condition. We then requested that the state of
Kentucky’s Treasurer’s Office calculate the interest earned on the asset
forfeiture fund for FYs 2008 through 2011. The following table illustrates
that the total interest earned on forfeiture funds for all 4 fiscal years, as
calculated by the Treasurer’s Office, was $115,926.




                                    -4-
           KSP EQUITABLE SHARING FUND INTEREST EARNED


                      FISCAL YEAR            INTEREST EARNED

                          2008                                $31,369

                          2009                                 38,393

                          2010                                 33,478

                          2011                                12,686 2
                             Total                         $115,926
                    Source: Commonwealth of Kentucky Finance Branch

       As a result of our inquiry and discussions with the Finance Branch, the
Commonwealth remedied the total interest earned and placed $115,926 in
the asset forfeiture fund. Additionally, we verified with the Finance Branch
that interest earned on the KSP asset forfeiture fund since June 2011 has
been properly disbursed to the fund on a monthly basis. We recommend
that the KSP file amended Certification Reports for FY 2008 through 2011 to
account for these funds and remedy our finding of enhanced revenue. We
also recommend that the AFMLS determine to what extent (if at all) the
interest earned on forfeiture funds in prior year should be remedied.

      Additionally, we found that the ending cash balance on the KSP’s
2010 Certification Report was incorrect because the KSP did not report
$6,704 in reimbursements from drug buy money it received. According to
the KSP, its accounting system did not have the ability to track recovered
funds that had been used in undercover operations to purchase drugs.
However, according to the KSP, this accounting system issue has been
corrected and these funds are reflected on the KSP’s 2011 Certification
report.

       We also found that the 2010 Certification Report listed a $950 police
canine as having been purchased with DOJ equitable sharing funds.
However, the KSP’s accounting record listed the canine as purchased with
Treasury Forfeiture funds. When we brought this to the attention of KSP
officials, they amended the 2010 Certification Report and correctly classified
the canine as a Treasury expense.

       2
         This represents the total cash distributions for FY 2011 less cash distributions
earned during June 2011 in the amount of $2,441. On July 1, 2011, the cash distribution
for June 2011 was properly paid to KSP’s DOJ asset forfeiture fund.



                                           -5-
Accounting for Equitable Sharing Receipts

       The Guide to Equitable Sharing for State and Local Law Enforcement
Agencies, dated April 2009 (2009 Equitable Sharing Guide), requires that all
participating state and local law enforcement agencies implement standard
accounting procedures to track equitably shared revenues and property.
Additionally, DOJ equitable sharing funds must be accounted for separately
from any other funds. We reviewed procedures for reconciling equitable
sharing requests against sharing receipts, reconciled the agency’s accounting
records to DOJ records of equitable sharing funds shared with the agency,
and reviewed equitable sharing receipts to determine if the funds were
properly accounted for and deposited.

      We identified that the KSP had received 133 cash receipts of equitable
sharing funds totaling $893,353 during FY 2010. We reviewed the five
highest receipts totaling $280,782 and concluded that the KSP accurately
accounted for all equitably shared revenues received during FY 2010.

       Additionally, according to the 2009 Equitable Sharing Guide, the
agency receiving equitable sharing funds is required to maintain separate
accounting records for DOJ equitable sharing funds. We determined that the
KSP equitable sharing funds were directly deposited into the Commonwealth
of Kentucky’s General Account and a special accounting code was used to
identify DOJ equitable sharing receipts.

DAG-71s

      According to the 2009 Equitable Sharing Guide, the law enforcement
agency is to maintain a log and copies of all DAG-71 Forms. The log should
contain the seizure type, amount seized, requested amount, amount
received, and the date. We found that the KSP maintained a DAG-71 log
and recorded cash receipts, but it did not record in the log the property
received or the amount of the forfeiture that was requested. We
recommend the KSP maintains a DAG-71 log that contains all the required
elements, including seizure type (cash and property), amount seized, share
amount requested, amount received, and date received.


Use of Equitably Shared Property

      The 2009 Equitable Sharing Guide also requires that any forfeited
tangible property transferred to a state or local agency for official use must
be used for law enforcement purposes only. Further, vehicles and other
tangible property transferred for official law enforcement use must be so


                                     -6-
used for at least 2 years. However, if the property becomes unsuitable for
such stated purposes before the end of the 2-year period, it may be sold.
During FY 2010, the KSP received six forfeited vehicles. We sampled all six
seized vehicles and concluded that all were listed in the KSP inventory
records, were currently in law enforcement custody, and were being used for
allowable law enforcement purposes.

       In accordance with OMB Circular A-133, federal non-cash assistance
shall be valued at fair market value at the time of receipt or valued at the
assessed value provided by the federal agency. During our initial review, we
found that the six seized vehicles were valued at $64,785 on the CATS
Report, while the vehicles were valued at $32,512 in the KSP inventory
records. When we asked KSP officials about this difference of $32,273,
several stated that the current Kelley Blue Book Value is typically used when
calculating vehicle values. However, we found the assessment of vehicle
values to be inconsistent. We noted several instances where the KSP
inventoried a vehicle value at the price paid to the U.S. Marshals Service
(USMS) to store a vehicle. In the assessment of one vehicle, it appeared
that the KSP combined the price paid to the USMS for storage and the Kelley
Blue Book value and used the combined total for its inventory value.
Additionally, we found there to be no written procedures established for
assessing seized property values. When we brought this to their attention,
KSP officials updated the asset values in their inventory records for all
six vehicles, resulting in a less significant difference of $5,155 between the
CATS and KSP inventory records. We consider this figure to be more in line
with the CATS Report supplied by AFMLS and more in line with the fair
market value of the property.

      We believe that the KSP should establish formalized procedures to
assess the value of seized property to ensure that it is in line with fair
market value or the assessed value determined by the federal agency. We
believe this would ultimately reflect consistency of shared asset values in the
KSP’s inventory records.




                                     -7-
Use of Equitable Sharing Funds

      Generally, the 2009 Equitable Sharing Guide requires that the use of
equitable sharing funds received by state and local agencies be limited to
law enforcement purposes. However, under certain circumstances, up to
15 percent of equitable sharing revenues may be used for the costs
associated with drug abuse treatment, drug and crime prevention education,
housing and job skills programs, or other nonprofit community-based
programs or activities. Law enforcement agencies can transfer cash to
another law enforcement agency.

       We found that the KSP used most of its equitable sharing revenue to
help fund its undercover operations. Specifically, the KSP issues to each of
its undercover officers “Operation Undercover Mastercards,” which the
officers use to obtain cash advances. The officers use this cash to make
drug buys and to pay informants in an effort to further their investigations.
Overall, cash advances obtained by KSP undercover officers accounted for
99 percent of the KSP’s equitable sharing expenditures in FY 2010.

       During FY 2010, the KSP expended $1,355,129 in DOJ equitable
sharing revenues. We judgmentally selected and reviewed 21 expenditures
(12 of which came from a yearly wrap-up report of monthly Mastercard
statements containing multiple individual cash advance transactions),
totaling $1,349,658. Based on our review of the wrap-up report, we
determined that four of these expenditures were unallowable. Specifically,
we found:

      •   a miscalculation in the amount of $137 was incorrectly paid out of
          forfeiture funds;

      •   an Executive Security Officer’s credit card balance of $313 was
          incorrectly categorized;

      •   a foreign currency fee of $47 was assessed on an Executive
          Security Officer’s account but reimbursed out of asset forfeiture
          funds; and

      •   $695 for a purchase made by an Executive Security Officer was
          incorrectly categorized.

      The KSP promptly remedied each of the four unallowable expenditures
during our site visit.




                                      -8-
       To determine if the KSP complied with its own policies governing
undercover funds, we selected a judgmental sample of 27 individual officers’
Mastercard statements, totaling $72,051. We found there to be no misuse
of equitably shared funds, and all documentation was accounted for as
outlined in the KSP’s Polices for Mastercard Use in Undercover Operations.
We also determined that transactions were supported by adequate
documentation, items were used for law enforcement purposes, and the
expenditures were allowable and in accordance with the guidelines.

Single Audit Act Requirements

       The 2009 Equitable Sharing Guide requires that the agency follow the
Single Audit Act Amendment of 1996 and OMB Circular A-133, which require
each non-federal entity that expends a total amount of federal awards equal
to or in excess of $500,000 in a fiscal year to have either a Single Audit or a
program-specific audit performed for such fiscal year.

     During FY 2010, the KSP expended over $1.3 million in DOJ equitable
sharing funds. However, the Commonwealth of Kentucky’s Statewide
Single Audit for the year ended June 30, 2010, did not include the DOJ
Equitable Sharing Fund. We spoke with officials from the Office of the
Auditor of Public Accounts for the Commonwealth of Kentucky who said the
reason the Asset Forfeiture Fund was not included in the Single Audit Report
was due to an error in the information the Auditor’s Office received from the
Kentucky Finance and Administration Cabinet with regards to the sources of
federal funds. 3 The Audit Manager with whom we spoke agreed to notify
the Finance and Administration Cabinet and stated that the financial activity
from the Asset Forfeiture Fund would be reported in future Single Audit
reports. We recommend the KSP ensure that its DOJ forfeiture fund
expenditures are included in the Commonwealth of Kentucky’s Statewide
Single Audit.

Supplanting

       Pursuant to the 2009 Equitable Sharing Guide, equitable sharing
revenues must be used to increase or supplement the resources of the
receiving state or local law enforcement agency. Equitably shared funds
shall not be used to replace or supplant the resources of the recipient. To
test whether equitable sharing funds were used to supplement rather than



       3
         The Finance and Administration Cabinet’s mission is to serve the administrative
needs of the state government. Its core mission is to provide services that will better
enable agencies to deliver services and perform their duties on behalf of the general public.


                                            -9-
supplant local funding, we interviewed local officials and reviewed the
agency’s local budgets for FYs 2009, 2010, and 2011.

      Although the KSP budget decreased from $139,127,912 in FY 2009 to
$130,117,000 in FY 2010, we concluded the economic crisis was the
contributing factor for the Commonwealth of Kentucky’s decision to reduce
the budget. Based on the results of our interviews and our review of the
Commonwealth of Kentucky budget documents, we did not find any
indications that the KSP was using equitable sharing funds to supplant local
funding.

Views of Responsible Officials

      We discussed the results of our review with KSP officials throughout
the audit and at a formal exit conference. Their input on specific issues has
been included in the appropriate sections of the report.

Recommendations

      We recommend that the Assistant Attorney General, Criminal Division:

   1. Require the KSP to file a corrected Equitable Sharing Agreement and
      Certification Report for FY 2010, which should reflect enhanced
      revenue received from interest earned and restitution revenue
      received.

   2. Remedy the $115,926 in enhanced revenue by requiring the KSP to
      submit a corrected Annual Certification Report that accurately reflects
      the interest earned for FYs 2008 through June 2011.

   3. Determine to what extent (if at all) the Commonwealth of Kentucky
      should remedy the interest earned in prior years on Forfeiture Funds.

   4. Ensure the KSP maintains a DAG-71 log that contains all the required
      elements, including seizure type (cash and property), amount seized,
      share amount requested, amount received, and date received.

   5. Require the KSP to establish written procedures identifying how to
      assess the value of shared assets.

   6. Require the KSP to ensure that the DOJ Asset Forfeiture Fund
      expenditures are included in the Commonwealth of Kentucky’s
      Statewide Single Audit.



                                    - 10 -
           OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      The objectives of the audit were to assess whether equitably shared
cash and property received by the requesting agency were accounted for
properly and used for allowable purposes as defined by the applicable
regulations and guidelines. We tested compliance with what we considered
to be the most important conditions of the DOJ equitable sharing program.
We reviewed laws, regulations, and guidelines governing the accounting for
and use of DOJ equitable sharing receipts, including the Guide to Equitable
Sharing for State and Local Law Enforcement Agencies, dated April 2009.

      Unless otherwise stated in our report, the criteria we audit against are
contained in these documents.

Scope and Methodology

      Our audit concentrated on, but was not limited to, equitable sharing
receipts received by the KSP from July 1, 2009, through June 30, 2010. We
performed audit work mainly at the KSP headquarters located in Frankfort,
Kentucky. We interviewed KSP officials and examined records of federal
asset forfeiture revenues and expenditures of DOJ equitable sharing
revenues and property received by the KSP.

       During FY 2010, there were 133 receipts totaling $893,353, and
6 forfeited tangible assets totaling $64,785. We tested the five highest
receipts totaling $280,782, as well as all six forfeited assets. During
FY 2010, there were 31 disbursements totaling $1,355,129. We selected
21 disbursements, totaling $1,349,658. Due to the large dollar amount used
for credit card use, we performed a separate transaction sampling and
tested 27 individual KSP officers’ Undercover MasterCard statements,
totaling $72,051 for testing. Judgmental sampling design was applied to
obtain broad exposure to numerous facets of the disbursements reviewed,
such as dollar amounts and cost categories. This non-statistical sample
design does not allow projection of the test results to all disbursements.



                                    - 11 -
      We relied on computer-generated data contained in the DOJ
Consolidated Asset Tracking System (CATS) for determining equitably
shared revenues and property awarded to the KSP during the audit period.
We did not establish the reliability of the data contained in the CATS system
as a whole. However, when the data used is viewed in context with other
available evidence, we believe the opinions, conclusions, and
recommendations included in this report are valid.

      In planning and performing our audit, we considered internal controls
established and used by the KSP over DOJ equitable sharing receipts to
accomplish our audit objectives. We did not assess the reliability of the KSP
financial management system or internal controls of that system or
otherwise assess internal controls and compliance with laws and regulations
for the Commonwealth of Kentucky as a whole.

      Our audit included an evaluation of the KSP, a unit of the
Commonwealth of Kentucky, which was included in a statewide audit
conducted by The Auditor of Public Accounts for the Commonwealth of
Kentucky. However, we did note that DOJ Asset Forfeiture Funds were not
included in this audit. The statewide Single Audit Report accompanied the
Comprehensive Annual Financial Report for the year ended June 30, 2010.
The Single Audit Report was prepared under the provisions of Office of
Management and Budget Circular A-133. We reviewed the independent
auditor’s assessment, which disclosed no control weaknesses or significant
noncompliance issues related specifically to the KSP.




                                    - 12 -
                                                                              APPENDIX II


                                AUDITEE RESPONSE


March 7, 2012


Carol S. Taraszka
Regional Audit Manager
U.S. Department of Justice
Office of the Inspector General
500 West Madison Street, Suite 1121
Chicago, Illinois 60661-2590


Dear Ms. Taraszka:

       Enclosed for your review are our responses to your recommendations concerning our
Audit of Use of Equitable Sharing Funds by Kentucky State Police.

Recommendations

1. Require the KSP to file a corrected Annual Certification Report and Equitable Sharing
   Agreement for FY 2010, which should reflect enhanced revenue received from interest
   earned, criminal proceeds, and restitution revenue received.

       Response:
       KSP has prepared a corrected Annual Certification Report and Equitable Sharing
       Agreement for FY 2010, which reflects enhanced revenue received from interest earned,
       criminal proceeds, and restitution revenue received. (see attachments)


2. Remedy the $115,926 in enhanced revenue by requiring the KSP to submit a corrected
   Annual Certification Report that accurately reflects the interest earned for FYs 2008 through
   June 2011.

       Response:
       KSP has prepared corrected Annual Certification Reports for FYs 2008 through June
       2011 to accurately reflect interest earned. (see attachments)




                                            - 13 -
3. Determine to what extent (if at all) the Commonwealth of Kentucky should remedy the
   interest earned in prior years on Forfeiture Funds.

       Response:
       To be determined.


4. Ensure the KSP maintains a DAG-71 log that contains all the required elements, including
   seizure type (cash and property), amount seized, share amount requested, amount received,
   and date received.

       Response:
       Once the KSP receives a DAG-71 forfeited property for official use, it will be noted in
       the notes column of the DAG-71 log. KSP will continue to follow the equitable sharing
       guidelines. If an amount requested is omitted, it is due to the large number of agencies
       involved with an investigation and the amount has not been determined. KSP will be
       diligent in following up on received amounts once participating agencies have
       determined the amount to KSP and note such on the DAG-71 log.


5. Require the KSP to establish written procedures identifying how to assess the value of seized
   assets.

       Response:
       KSPs current procedure for assessing the value of seized property is being reviewed and a
       formal written policy is being discussed and will be determined. The following is the
       current procedure for assessing the value of seized property:

       When assessing the value of an automobile, the value should be determined by the Kelly
       Blue Book Value. Any other property seized should be valued determined by an
       investigator who is considered a subject matter expert by the KSP, who will value the
       property based on market value and condition.


6. Require the KSP to ensure that the DOJ Asset Forfeiture Fund expenditures are included in
   the Commonwealth of Kentucky’s Statewide Single Audit.

       Response:
       All future Commonwealth of Kentucky Statewide Single Audits will include DOJ Asset
       Forfeiture Fund expenditures.




                                            - 14 -
We are attaching FY 2008 through FY 2011 Amended Equitable Sharing Agreement and
Certification for your review. The Affidavit-Existing Participant form will be faxed to (202)-
616-1344 once signatures are acquired, with signed hard-copy response to follow in the mail. If
I can be of further assistance, please do not hesitate to call.


Sincerely,



D. Janet Brock
Administrative Section Supervisor
Kentucky State Police
919 Versailles Road
Frankfort, KY 40601
502-782-1830



Cc:    U.S. Department of Justice Criminal Division




                                            - 15 -
                                                                       APPENDIX III


     OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
       ACTIONS NECESSARY TO RESOLVE THE REPORT

      The Department of Justice Office of the Inspector General (OIG)
provided a draft of this audit report to the Criminal Division and the
Kentucky State Police (KSP). We incorporated the KSP’s response as
Appendix II of this final report. 4 However, the audit recommendations are
unresolved because the Criminal Division declined to provide comments on
the draft report. The following provides the OIG analysis of the KSP’s
response and a summary of actions necessary to resolve each report
recommendation.

Recommendation Number

1.    Unresolved. The KSP concurred with our recommendation to file a
      corrected Equitable Sharing Agreement and Certification Report for
      FY 2010, which should reflect enhanced revenue received from interest
      earned and restitution revenue received. According to the KSP, it has
      prepared a corrected Annual Certification Report and Equitable Sharing
      Agreement for FY 2010. Additionally, the KSP provided a copy of its
      amended FY 2010 Report.

      However, this recommendation is unresolved because the Criminal
      Division did not respond to the draft report. This recommendation can
      be resolved once the OIG and the Criminal Division reach agreement
      on corrective action planned to address the recommendation.

2.    Unresolved. The KSP concurred with our recommendation to remedy
      the $115,926 in enhanced revenue by requiring the KSP to submit a
      corrected Annual Certification Report that accurately reflects the
      interest earned for FYs 2008 through June 2011. According to the
      KSP, it has prepared corrected Annual Certification Reports for
      FYs 2008 through June 2011 to accurately reflect interest earned.
      Additionally, the KSP provided copies of these reports.

      However, this recommendation is unresolved because the Criminal
      Division did not respond to the draft report. This recommendation can
      be resolved once the OIG and the Criminal Division reach agreement
      on corrective action planned to address the recommendation.



      4
         The KSP response included attachments that we have not included in our report
due to their technical nature.


                                         - 16 -
3.   Unresolved. In its response to the draft report, the KSP did not
     address our recommendation to the Criminal Division to determine to
     what extent (if at all) the Commonwealth of Kentucky should remedy
     the interest earned in prior years on Forfeiture Funds.

     This recommendation is unresolved because the Criminal Division did
     not respond to the draft report. This recommendation can be resolved
     once the OIG and the Criminal Division reach agreement on corrective
     action planned to address the recommendation.

4.   Unresolved. The KSP concurred with our recommendation to ensure
     the KSP maintains a DAG-71 log that contains all the required
     elements, including seizure type (cash and property), amount seized,
     share amount requested, amount received, and date received. The
     KSP stated that it will continue to follow the equitable sharing
     guidelines and will be diligent in following up on amounts received.

     However, this recommendation is unresolved because the Criminal
     Division did not respond to the draft report. This recommendation can
     be resolved once the OIG and the Criminal Division reach agreement
     on corrective action planned to address the recommendation.

5.   Unresolved. The KSP concurred with our recommendation to require
     the KSP to establish written procedures identifying how to assess the
     value of shared assets. The KSP stated that its current procedure for
     assessing the value of seized property is being reviewed and a formal
     written policy is being discussed and will be determined.

     However, this recommendation is unresolved because the Criminal
     Division did not respond to the draft report. This recommendation can
     be resolved once the OIG and the Criminal Division reach agreement
     on corrective action planned to address the recommendation.

6.   Unresolved. The KSP concurred with our recommendation to require
     the KSP to ensure that the DOJ Asset Forfeiture Fund expenditures are
     included in the Commonwealth of Kentucky’s Statewide Single Audit.
     The KSP stated that all future Commonwealth of Kentucky Statewide
     Single Audits will include DOJ Asset Forfeiture Fund expenditures.

     However, this recommendation is unresolved because the Criminal
     Division did not respond to the draft report. This recommendation can
     be resolved once the OIG and the Criminal Division reach agreement
     on corrective action planned to address the recommendation.


                                  - 17 -
